<html>
<title> - THE FUTURE OF LOW DOSE RADIATION RESEARCH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                         THE FUTURE OF LOW DOSE
                           RADIATION RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2017

                               __________

                           Serial No. 115-34

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-673 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY McNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
NEAL P. DUNN, Florida
LAMAR S. SMITH, Texas































                            C O N T E N T S

                            November 1, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Bill Foster, Subcommittee on Energy, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

                               Witnesses:

Mr. John Neumann, Director, Science and Technology Issues, 
  Government Accountability Office
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Gayle Woloschak, Professor, Radiation Oncology and Radiology, 
  Northwestern University
    Oral Statement...............................................    27
    Written Statement............................................    30

Dr. James Brink, Professor, Radiology, Harvard Medical School; 
  Radiologist-in-Chief, Massachusetts General Hospital
    Oral Statement...............................................    34
    Written Statement............................................    36

Discussion.......................................................    42

             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    62

Statement submitted by Ms. Laura I. Thevenoy, Cheif Executive 
  Officer, American Society for Therapeutic Radiology and 
  Oncology (ASTRO)...............................................    64

Letter submitted by Representative Bill Foster, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    65

 
               THE FUTURE OF LOW DOSE RADIATION RESEARCH

                              ----------                              


                      Wednesday, November 1, 2017

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:38 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Weber. The Subcommittee on Energy will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``The Future of Low 
Dose Radiation Research.'' I now recognize myself for five 
minutes for an opening statement.
    Good morning. Welcome to today's Energy Subcommittee 
hearing. Today, we will examine the status of U.S. research in 
low dose radiation and explore the effects of the previous 
Administration's agency-wide reduction in funding for this area 
of science.
    Last Congress, the Science Committee explored the 
Department of Energy's decision to terminate the Low dose 
Radiation Research program, which, until its closure in 2016, 
was one of the largest and most effective programs in the 
world. In the course of staff briefings on this decision, a DOE 
employee was fired for speaking out in support of the Low Dose 
Radiation Research program. While this employee was eventually 
reinstated as a result of Committee oversight, the Department 
has yet to restart this important area of research.
    The DOE's program explored the health impacts of low levels 
of radiation, allowing our Nation's researchers, industry, and 
military to safely handle nuclear material, maintain the 
nation's nuclear weapons program, and dispose of nuclear waste.
    Low dose radiation research can also inform the authorities 
who set nuclear safety standards for the public, enabling 
federal emergency response agencies to more accurately set 
evacuation zones from radiological incidents.
    This research is also particularly important to practicing 
physicians, who rely on knowledge about the impact of low doses 
of radiation to decide when and how to use diagnostics to 
detect cancer in patients.
    This use-inspired, basic research leads to scientific 
discoveries and long-term benefits for the energy industry and 
our national defense.
    Today's hearing is yet another opportunity to evaluate 
whether we as a nation are doing everything we can to ensure 
that the regulations, guidelines, and protections we put in 
place are indeed grounded in sound science.
    We know a lot about the relationship between adverse health 
effects and high doses of radiation. At high doses, the dosage 
and risk are proportionally related. But the health risks 
associated with exposure to low doses of radiation are much 
more difficult to observe, and we are a long way away from 
understanding and accurately assessing this particular risk.
    In the absence of conclusive evidence, scientists use 
what's called the linear-no-threshold (LNT) model to 
approximate the effects of low doses of radiation on the human 
body. This model takes what we know about high doses and 
applies it to low doses. Current federal dose limits and 
guidelines are based on the LNT model. Because this model is 
simply an assumption of the impact, not a validated mechanism 
for assigning risk, there is no definitive science to justify 
many of our nation's nuclear safety procedures or to set 
guidelines for medical treatments.
    In order to best serve our nation's energy, medical and 
defense needs, we need foundational research in radiology and 
biology to directly define the impact of low doses of 
radiation.
    Here on the Science Committee, we hear a lot of enthusiasm 
for next-generation technologies but we cannot forget about the 
questions we have left unanswered. The United States should not 
rely on a best approximation when it comes to our nuclear 
regulatory policies.
    DOE must reprioritize basic research in low dose radiation 
so we know we are using the best available science to set these 
standards.
    I want to thank our accomplished panel in advance, our 
witnesses, for testifying today, and I look forward to a 
productive discussion about the future of American low dose 
radiation research.

    [The prepared statement of Chairman Weber follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Weber. I now recognize the Ranking Member, the 
gentleman, for his comments.
    Mr. Foster. Thank you, Chairman Weber----
    Chairman Weber. I'm sorry. The--you're right, the Ranking 
Member.
    Mr. Foster. Well, I'm the Ranking Member pro tem, I 
believe.
    Chairman Weber. I think that's what it is.
    Mr. Foster. Well, I guess representing 100 percent of the 
Ph.D. scientists in Congress.
    Chairman Weber. There we go.
    Mr. Foster. Anyway, I want to thank you for holding this 
hearing on a really very interesting and important topic, and 
thank you to all our witnesses for being here to provide us 
with your testimony and your expertise. I'm Congressman Bill 
Foster. I'm a scientist and a businessman, so I understand the 
importance of regulatory costs and getting the answer right.
    This is an important issue because if you make the wrong 
decision or a decision not based on the best science, you know, 
frankly, people can die. If you set too conservative thresholds 
for chest X-rays, then patients may have non-diagnosed 
conditions because of X-rays that are not taken. If you, for 
example, set too conservative standards for nuclear workers, 
then it may impose--or nuclear bystanders--that may impose 
large costs on the nuclear industry and cause us to shift our 
energy balance, for example, to coal which we know kills tens 
of thousands of Americans each year.
    And so it's important to get this answer right. The basis 
of our regulatory framework around radiation exposure has been 
the linear no-threshold model, which I'm sure we'll hear all 
about today, and that says the risk of cancer and other bad 
effects increases with every incremental increase in radiation 
exposure. So this conservative approach to regulation is not 
fully justified by the current body of peer-reviewed scientific 
literature in the low dose regime and investing into this 
research in this field is not just about the development of 
regulations, it's all about public understanding of an 
important issue.
    Federal investments in radiobiology research have resulted 
in significant progress in our understanding of the health 
effects to low dose radiation, in particular, how cells respond 
to radiation exposure on a molecular level.
    During the past 17 years, the Low Dose Radiation Research 
program at the Department of Energy has been responsible for 
several notable shifts in how scientists examine the impacts of 
radiation exposure including the impact on radiation not only 
on the cells directly deposited with energy but on the cells 
surrounding them, so-called bystander cells. There's also a new 
technology that has become available. The use of Big Data, for 
example, to perform virtual experiments on large human 
populations to try to tease out the signal here, or for 
example, gene sequencing of blood samples to detect cancer and 
precancerous cells at a preclinical level.
    This work has informed our physicians and medical 
researchers as they try to design better treatments for cancer 
patients, and moreover, the implication of this research can be 
seen in the number and the breadth of different federal 
agencies that are investing in this work. In addition to the 
Department of Energy, there have been federal investments in 
low dose radiation research at the Nuclear Regulatory 
Commission, the FDA, the Environmental Protection Agency, and 
the National Institutes of Health, NASA and the CDC. These 
agencies all see benefits from this work, and in their own 
areas of interest.
    Yet the leadership in DOE under the past Administration and 
I should note, under the current Trump Administration as well, 
has decided to no longer support this research, and I'm happy 
to join my Majority colleagues with our questioning of this 
position, and we are not alone in our concerns. The GAO's 
report on this topic seemed very clear. They recommend that DOE 
take the lead in ``the development of a mechanism of 
interagency collaboration on research on low dose radiation's 
health effects.'' Though I must observe that one of the, you 
know, glaring omissions from this hearing is a witness from the 
Department of Energy. We're reviewing a report from GAO that 
includes key recommendations for DOE, and it is sad that we're 
here without a representative from the Department to provide us 
with their input on these recommendations, and it's really a 
missed opportunity. I'm disappointed that we can't have a more 
complete conversation here, and hopefully make real progress in 
our oversight of the Department in this crucial area of 
research.
    I hope the Majority will consider as we move forward with 
additional hearings on this topic or others directly under the 
purview of DOE the Department's lack of a Senate-confirmed 
leadership really shouldn't give us--give them immunity from 
Congressional oversight.
    And with that said, I'm looking forward to this bipartisan 
dialogue on an important topic, and thank you again, Mr. 
Chairman and our witnesses.
    [The prepared statement of Mr. Foster follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Weber. I thank the Ranking Member pro tem, and now 
I'm going to introduce our witnesses.
    Our first witness today is Mr. John Neumann, Director of 
Science and Technology Issues at GAO. He manages and oversees 
both federal R&D programs and federal efforts to support 
innovation. Mr. Neumann received a bachelor's degree in 
political science from the State University of New York at 
Stony Brook, an MBA from American University, and a J.D. from 
Georgetown University.
    Our next witness is Dr. Gayle Woloschak--am I saying that 
right--a Professor of Radiation Oncology and Radiology at 
Northwestern University. Additionally, Dr. Woloschak is a 
Visiting Scientist at the Bundeswehr Institute for Radiobiology 
in Munich, Germany, and a lecturer at Rosalind Frank Medical 
School in North Chicago, and a Visiting Professor at Alexandria 
University in Alexandria, Egypt. And when do you sleep? She 
received a Ph.D. in microbiology at the Medical College of 
Ohio, Toledo, OH.
    Our last witness is Dr. James Brink, Professor of Radiology 
at Harvard Medical School, and Radiologist-in-Chief at 
Massachusetts General Hospital. Dr. Brink was elected an 
honorary member of the American Association of Physicists in 
Medicine and a member of the International Society for 
Strategic Studies in Radiology. Currently, he serves as the 
Scientific Vice President on the Board of Directors of the 
National Council for Radiation Protection. He received a 
bachelor's degree from Purdue University and an M.D. from 
Indiana University. Dr. Brink joins us today to testify in his 
capacity as the Chairman of the American College of Radiology 
Board of Chancellors.
    I want to say thank you to you all for being here, and we 
will begin our testimony, Mr. Neumann, by recognizing you for 
five minutes.

                 TESTIMONY OF MR. JOHN NEUMANN,

            DIRECTOR, SCIENCE AND TECHNOLOGY ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Neumann. Chairman Weber, Ranking Member and Members of 
the Subcommittee, thank you so much for the opportunity to be 
here today to discuss GAO's report on federal protections 
against the harmful effects of ionizing radiation and federal 
support for related research.
    To protect against cancer and other harmful effects 
associated with radiation exposure, the EPA, NRC, and other 
federal agencies have established requirements and guidance 
that apply to a range of settings in which exposure can occur. 
Agencies such as the Department of Energy have also funded 
research to determine how low doses of radiation affect human 
health. However, uncertainties remain about these effects. For 
example, in 2016, the Department of Energy's Biological 
Environmental Research Advisory Committee reported that further 
research on low dose radiation could decrease uncertainty in 
cancer risk estimates.
    My statement today summarizes our report on low dose 
radiation, which examined two areas: first, how selected 
federal agencies have developed and applied radiation 
protection requirements and guidance for workers and the 
public, and secondly, the extent to which federal agencies have 
funded and collaborated on research on the health effects of 
low dose radiation.
    In our review of how federal agencies developed and applied 
radiation protection requirements, we focused on four settings 
in which radiation exposure can occur: the operation and 
decommissioning of nuclear power plants, the cleanup of sites 
with radiological contamination, the use of medical equipment 
that produces radiation, and lastly, the accidental or 
terrorism-related exposure to radiation, and we found that to 
develop radiation protection requirements and guidance for 
these four settings, agencies generally relied on the advice of 
scientific advisory bodies, and this advice included the use of 
the linear no-threshold model, which assumes that the risk of 
cancer increases with every incremental increase in radiation. 
However, advisory bodies have also recognized challenges in 
accurately estimating cancer risks from very low doses of 
radiation. For example, much of the data on health effects of 
radiation exposure come from non-U.S. populations such as the 
Japanese atomic bomb survivors. These populations received a 
large exposure to radiation over a short time, and there is 
uncertainty about the extent to which the health effects for 
them can be extrapolated to a U.S. population that may be 
chronically exposed to low doses of radiation.
    In looking at federal agency support for research on the 
health effects of low dose radiation, we found that seven 
agencies obligated a total of about $210 million from fiscal 
year 2012 to 2016 but their collective annual funding has 
decreased by almost 50 percent over that period.
    We also found that agencies collaborated on particular 
research projects but they did not collaborate to address 
overall research priorities such as the research needs that the 
scientific advisory bodies we met with had identified regarding 
low dose radiation health effects. Such research needs include 
areas related to uncertainties in the linear no-threshold 
model, and by extension in the agency's dose limits and 
guidance levels that are based in part on that model.
    In the past the Department of Energy provided leadership in 
this area. However, its leadership role has decreased since 
2012 as the Department phased out funding for its main research 
program on low dose radiation health effects. We found that no 
other agency has stepped forward to fill this role.
    Given these findings, we recommended that the Department of 
Energy take the lead in developing a mechanism for interagency 
collaboration on low dose radiation research. The Department 
disagreed with our recommendation, stating that it would be 
inappropriate for it to lead because other agencies have their 
own budget authorities and research priorities. However, given 
the Department's past leadership role, we continue to believe 
that the Department of Energy is in the best position to lead 
agencies in developing such a mechanism for addressing shared 
research priorities. Such an action would be consistent with 
the Department's responsibilities under the Atomic Energy Act 
to conduct research related to nuclear energy including the 
protection of health during activities that can result in 
radiation exposure.
    This concludes my prepared remarks, and I'm happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Neumann follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
      
    Chairman Weber. Thank you, Mr. Neumann.
    Dr. Woloschak, you are recognized for five minutes. Thanks.

               TESTIMONY OF DR. GAYLE WOLOSCHAK,

          PROFESSOR, RADIATION ONCOLOGY AND RADIOLOGY,

                    NORTHWESTERN UNIVERSITY

    Ms. Woloschak. Okay. Thank you. I'd like to mention that I 
used to work at Argonne National Laboratory, a DOE facility as 
well. I think that's important to mention.
    I'm going to let some questions shape my discussion so the 
first question I'm going to ask is, what is low dose radiation? 
Before I describe what low dose versus high dose radiation 
means, I would like to remind everyone that ionizing radiation 
surrounds us daily. It is part of the natural background from 
sunlight and the Earth's crust, and radioactive chemicals are 
present in what we eat, drink and breathe including this cup of 
water I just drank. All of this constitutes natural background 
radiation, doses of radiation characterized as low dose 
radiation are higher than natural background. Most often, low 
dose radiation exposures occur when we are close to a nuclear 
cleanup site, or they might result from occupational or 
accidental exposures or exposure to medical low dose diagnostic 
procedures such as CT scans. Any of those low dose exposures 
are thousands of times lower than the radiation therapy doses 
used to treat cancer patients. These therapy doses belong to 
the category of medium- and high-dose radiation.
    The next question is, what don't we know and why don't we 
understand low dose radiation? The most significant known risk 
from exposure to low dose radiation is considered to be cancer. 
If I ask a room of radiation biologists what is the risk for 
cancer formation from low dose radiation, I get every answer 
possible from a little bit of radiation is good for you, go sit 
in a radioactive spa and lap up those rays, to radiation risk 
for cancer deceases as the dose decreases, to risk from low 
doses is worse per unit dose than risk at high doses.
    So the question is, we don't actually know the precise 
relationship between low dose radiation exposure and cancer 
induction. Why is there so much disagreement? Because we have 
contradictory data. One source of this problem is that many of 
the low dose studies done in the past were performed with cells 
in a test tube. A direct leap from cells to humans is never 
done in medicine because it is just not accurate. Before 
clinical trials of any sort with drugs or with radiation, we 
use--numerous animal studies are done in advance. In addition 
to the question of cancer risk, some of the recent low dose 
studies in Europe, Japan and China suggest that we may need to 
explore additional issues such as risk to unborn, risks to 
newborns that may have different effects for central nervous 
system or cardiovascular system. Until we have more research, 
questions will remain.
    My next question is, why is closing the gap in 
understanding of paramount importance? My response is, our 
radiation protection policies deal with low doses of radiation 
because that is precisely the level of environmental and 
occupational exposures that can and should be regulated. 
Radiation protection is designed for a healthy population with 
the view of preserving health. With regard to low dose 
radiation, these policies are based on the assumptions we make 
about low dose radiation effects. It is a matter of course that 
citizens must be protected from dangers associated with 
radiation exposure, but overprotection may be wastefully 
expensive and deplete funds that could be used for other 
strategic goals for the Nation.
    Next question: What needs to be done in the research 
community to solve this issue? What was DOE's role in funding 
discoveries in the field? Work resulting from the DOE Low Dose 
Program led to many significant findings. For example, some 
unique biological responses to low dose radiation were found 
that are not evident at high doses. This means that a simple 
extrapolation from high-dose to low dose effects would not be 
correct. Much of this work was in the discovery phase and thus 
was done with cells in culture and never made its way to be 
tested in whole animals. This limits our ability to apply this 
work to human beings, which of course is our end goal. Since 
the time when the DOE Low dose program was terminated, 
biomedical science has continued to progress. New technologies 
have been developed and new discoveries have been made. Fine-
tuned models could be developed to set the stage for fine-tuned 
decisions and evidence-based protection policies.
    Before the DOE Low Dose Program, DOE was the leader in the 
radiation research science worldwide. Large-scale animal 
studies were done ranging from low dose occupational-type 
exposure to high-dose nuclear disaster-type exposures. I am in 
awe when I look at the volume, planning, design, and structure 
of these experiments done with animals for the entire duration 
of their lives. For reasons unknown to me, DOE terminated these 
studies without really completing a full analysis of the data. 
We are talking about data from 50,000 mice, 30,000 rats, 25,000 
dogs.
    Ultimately, this entire archive came to my laboratory at 
Northwestern, and it is the University that has supported it 
since the termination of the DOE Low Dose Program. What was the 
result of termination of the DOE Low Dose Program? I'm going to 
just go into the specifics here. For the U.S. radiation 
community, the loss of the DOE Low Dose Program has devastating 
effects. First of all, the radiation community for low dose has 
been decimated. Low dose radiation biologists participate in 
recommendations for radiation protection, for designing 
approaches to deal with radiation accidents, for dealing with 
population exposures. In the United States today, these 
committees are occupied predominantly by retired scientists. We 
are not able to train the next generation of radiation 
protection scientists in the United States and will be 
dependent on foreign support.
    Secondly, NASA has a need for low dose work with radiation 
types unique to space exposure. Complementary work must be done 
with Earth-type radiation exposures. NASA reported to the NASA 
Space Radiation Discipline Working Group, which I chaired, that 
they were looking for collaborators in Europe to facilitate 
their work. In the past DOE was their partner.
    We have lost much of the infrastructure to do low dose work 
in the United States. Many facilities are antiquated and have 
not been updated in some years. Some have even been 
decommissioned. In many cases, the capacity to perform this 
type of research would take time to rebuild.
    Finally, the United States is currently using low dose 
exposure effects data from science done in Europe, China, and 
Japan to support our regulatory policies. This is of concern 
because, one, other countries often have agendas in their 
research programs that are not consistent with our agendas. 
This is not to say that the research results are not correct, 
merely that the research design is set up to examine particular 
questions that may not be of equal priority in the U.S. Second, 
we do not have the capacity to reproduce any of those findings 
in the United States. And finally, in effect we are permitting 
other countries to set the radiation agenda for the world.
    Thank you.
    [The statement Ms. Woloschak follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
    Chairman Weber. Thank you, Doctor.
    Dr. Brink, you're recognized for five minutes.

            TESTIMONY OF DR. JAMES BRINK, PROFESSOR,

               RADIOLOGY, HARVARD MEDICAL SCHOOL;

                     RADIOLOGIST-IN-CHIEF,

                 MASSACHUSETTS GENERAL HOSPITAL

    Dr. Brink. Chairman Weber, Ranking Member pro tem Foster, 
and distinguished Members of the Subcommittee, I want to thank 
you for holding this hearing today and for the opportunity to 
testify on this important topic. I am Dr. James Brink, 
Radiologist-in-Chief at Massachusetts General Hospital and the 
Juan M. Taveras Professor of Radiology at Harvard Medical 
School. I serve as Vice Chair of the National Academy's Nuclear 
and Radiation Studies Board and as Scientific Vice President 
for Radiation Protection in Medicine for the National Council 
on Radiation Protection and Measurement.
    I am testifying today on behalf of the American College of 
Radiology as the current Chair of its Board of Chancellors. The 
American College of Radiology represents more than 36,000 
radiologists, radiation oncologists, interventional 
radiologists, medical physicists, and nuclear-medicine 
physicians whose patients benefitted from diagnostic and 
therapeutic uses of radiation in medicine.
    Without doubt, the use of ionizing radiation to diagnose 
and treat disease has revolutionized the practice of medicine. 
Millions of patients every year benefit from the use of 
radiation in diagnostic imaging, image-guided procedures, 
radiation therapies, and other applications.
    The effects of high-level radiation exposure on the human 
body including the link between high-dose radiation and cancer 
are relatively well understood. Much of our knowledge is based 
on decades of atomic-bomb survivor data and the experiences of 
first responders to the Chernobyl disasters. Exposures to high 
doses of radiation have been associated with several types of 
cancer.
    There is much greater uncertainty as to the link between 
cancer and exposure to low dose radiation. While exposure to 
lower doses may damage or alter a cell's genetic code, such 
exposure does not necessarily result in negative health 
consequences. This is because of the body's innate ability to 
repair itself and recover from cellular damage. This response 
is akin to your car's windshield wipers in the rain. In mild 
and moderate rainfall, your wipers keep everything relatively 
clear. In heavy and severe rainfall, your wipers can be 
overwhelmed and your vision blurred.
    The National Academy's Board on Radiation Effects Research 
has played an integral role in the study of the biologic 
effects of ionizing radiation over the last several decades, 
having published a series of reports on this topic. These are 
frequently cited in the professional literature and in 
regulatory and policymaking documents. However, the most recent 
report was issued in 2006, and an update is needed to 
critically explore the latest research and provide a balanced 
perspective on its significance.
    As medical providers who use ionizing radiation in the 
diagnosis and treatment of disease, we value the role the 
National Academies has played in distilling volumes of research 
related to ionizing radiation. To that end, the American 
College of Radiology endorsed the Low dose Radiation Research 
Act of 2015 in the last Congress. As this Subcommittee knows, 
the legislation would have required the Director of the 
Department of Energy Office of Science to carry out a research 
program to enhance our scientific understanding and reduce 
uncertainties related to the health effects of low dose 
radiation. Further, it would have required the Director to 
enter into an agreement with the National Academies to conduct 
a study assessing the current status and development of a long-
term strategy for low dose radiation research. We believe it is 
important for the National Academies to periodically assess the 
status and inform the development of a long-term strategy for 
low dose radiation research.
    We also believe the Department of Energy and other federal 
agencies must be adequately funded to support low dose 
radiation research activities. Accordingly, we urge that 
similar legislation be introduced and passed in the current 
Congress. This is so important because it is very likely that 
someone you know will undergo a medical procedure that uses low 
dose radiation, and this research is necessary to better inform 
the potential risks of those procedures. We at the American 
College of Radiology and in the radiology community hope to 
continue to be a resource to this Subcommittee moving forward.
    Thank you again for the opportunity to testify today and 
for holding this hearing on such an important topic.
    [The prepared statement of Dr. Brink follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Chairman Weber. Thank you, Doctor.
    I now recognize myself for questions for five minutes.
    Mr. Neumann, your report found that federal funding for low 
dose radiation research in the United States had declined by 
almost 50 percent from 2012 to 2016. I know some of the other 
testimony was about we had to depend on foreign research, as 
you heard from Dr. Woloschak, or was it Dr. Brink? What impact 
has that decrease in funding, in your opinion, had on the U.S. 
leadership in this area of research?
    Mr. Neumann. Well, certainly when talking to all the 
agencies that are involved in this type of research, they all 
agree that there's a need to coordinate and better collaborate 
to identify and develop the research priorities to see that 
they are met, and so without this leadership, there's a 
potential of some of these gaps not being filled.
    Chairman Weber. Let me follow up on that. A couple of the 
testimonies said that there's no collaborative mechanism, and 
so Dr. Woloschak, I'll jump over to you real quick. What does a 
collaborative mechanism to you look like?
    Ms. Woloschak. So in the days of the DOE Low dose program, 
what they would do is, if there was an interest from, say, DOE 
and NASA, NASA would help fund the same project. They would 
give a bit of the funding and expect that they could take 
advantage of the data that resulted from it. That I think was a 
very good collaborative arrangement between two different 
agencies working together that had similar goals. That's no 
longer possible. NASA's working alone. They don't have that 
sort of collaborative arrangement. I think similar arrangements 
between NIH and DOE actually existed for a period of time too. 
So I think those are the kinds of things that are very, very 
helpful.
    Chairman Weber. Do you agree with that, Dr. Brink?
    Dr. Brink. I do indeed.
    Chairman Weber. Okay. Now, Dr. Woloschak makes a very 
interesting point in her testimony that we don't have the next 
generation or whatever the term is of scientists. We're not 
getting them trained. Since you have a college nexus there, why 
is that, do you think?
    Dr. Brink. It's an interesting question. We have noticed 
that there's been a relative decline in what we call radiation 
professionals over the years, and it's certainly been a concern 
of the National Council for Radiation Protection and others, 
and it's not exactly obvious why there has been a decline but 
we've certainly made efforts to try and rebolster and 
reinvigorate interest in this field really for the sake of the 
Nation going forward.
    Chairman Weber. Are you in possession of the numbers? Do 
you know what that looks like? Did we have a thousand 
scientists that have now gone to a hundred or fifty, or do you 
know what the----
    Dr. Brink. I don't. I'd be happy to find some numbers for 
you and get those to you.
    Chairman Weber. Well, I'm just curious because that's 
interesting why we're declining, and to your comments that we 
had to depend on foreign countries whose interests may not 
exactly align with ours.
    Ms. Woloschak. I can comment on that as well. I mean, I 
know American Society for Therapeutic Radiation Oncology did a 
joint meeting at NIH about two or three years ago to try to 
talk about the decline, and I believe that the major result of 
that meeting was, was to say it's declining because we don't 
have people funded in low dose radiation research, so then to 
take students into the lab to do research and learn how to 
understand low doses, there were no training grounds.
    Chairman Weber. So let me paraphrase that if I understand. 
If we were to take and we were to have a more better funded 
program, a more collaborative approach where we focused on 
this, then we could perhaps induce students to be interested. 
Is that what you're saying?
    Ms. Woloschak. Oh, absolutely. I see it with my own 
students.
    Chairman Weber. Okay. I'm going to change gears a little 
bit. You said in your testimony that there's a lot of naturally 
occurring low dose radiation. You went through some examples. 
Do we have any facts and figures as to maybe for the both of 
you doctors, do we have any facts and figures on what 
percentage of that occurs due to medical exams? I mean, is it 
five percent in the general population? Is it three percent. 
What percentage actually occurs due to medical exams?
    Ms. Woloschak. We actually wouldn't call medical exams part 
of natural background.
    Chairman Weber. Well, I don't mean natural but natural was 
one. You know, you go through airports, you go through 
screening.
    Ms. Woloschak. So medical exposures make up the highest 
percentage of human-made exposures that we have in the United 
States.
    Chairman Weber. What percentage is that?
    Dr. Brink. I think it's about 45 percent.
    Chairman Weber. 45 percent. Okay. And it's even in the 
water you drink. Before you take another drink, I wanted to 
make sure you remember that.
    Okay. Another question. Dr. Woloschak, in your testimony 
you said you had considered that there were also risks to the 
unborn. Is that through the mother or is it through the medical 
exams? What do you--how do you consider that?
    Ms. Woloschak. Actually the data out of the E.U. right now 
is suggesting that there are effects during pregnancy that are 
probably coming through the mother in some way, and we don't 
actually know the low dose mechanism but it looks as though the 
unborn maybe more sensitive, and even the data coming out of 
Hiroshima and Nagasaki studies suggest that the very young are 
more susceptible to cancer induction than very old from cleanup 
sites, from, you know, those sorts of things.
    Chairman Weber. Thank you. That reminded me. Two quick 
questions. I'm a little over my time.
    Nagasaki, Hiroshima and the Japanese-related event, that 
population has to be going away because those survivors have to 
be diminishing almost daily. Do you know how many of those are 
left?
    Ms. Woloschak. I don't know the exact numbers but you are 
exactly right. They are declining significantly. I was just 
there maybe 6 months or 8 months ago, and they are continuing 
to study the population as long as they can. But one thing to 
realize is most of that population got sort of higher dose, 
what we would consider to be low moderate dose, not the very 
low doses that we would get, say, from, you know, occupational 
exposures here.
    Chairman Weber. All right. And then finally, I think it was 
you, Dr. Brink, who talked about Chernobyl. Do I remember 
right?
    Dr. Brink. Yes.
    Chairman Weber. So let's jump over to that population. When 
was that event, and how many were affected? Do you know that 
offhand?
    Dr. Brink. I don't know that off the top of my head. I'm 
sorry.
    Chairman Weber. So it's a more recent study.
    Ms. Woloschak. The event was about 30 years ago. The 
problem with the Chernobyl studies is that the dosimetry is a 
little bit off. There's a lot of work being done with 
dosimetry.
    Chairman Weber. Right.
    Ms. Woloschak. It's hard to analyze easily.
    Chairman Weber. Okay. Well, thank you. I'm over my time, so 
appreciate you all, and I now recognize Mr. Foster.
    Mr. Foster. Thank you, Mr. Chairman.
    I'm trying to puzzle out why it's been difficult to sustain 
an interagency collaboration on this. There has--you know, 
there's sort of--there's a bad reason this could happen, which 
is that bureaucracies under financial stress will often try to 
get rid of programs, shared programs, that they don't view as 
along their core line of business, and it's a natural thing. I 
think the only solution to that is to have the Congress say 
hey, this is something important that's slipping through the 
cracks between our agencies and basically knock heads to make 
sure that, you know, those are maintained.
    There's another potential technical reason are the real 
differences in the type of radiation exposures that are of 
interest to different agencies. You know, if you're worried 
about healthcare, it's probably different than if you're 
worried about space-based exposure versus ingestion of 
radioisotopes from nuclear accidents and so on. So how much of 
that difficulty has to do with when you sit down to write the 
specifications of what you want to learn that you find 
different agencies have different specifications. Does anyone 
want to----
    Ms. Woloschak. Yeah, you're exactly right in that different 
agencies do have different needs but a lot of times they 
overlap. So for instance, while NASA is going to care about 
space radiation and DOE is going to care about Earth-based 
types of radiation, you actually almost always need to use the 
Earth-based radiation as a control to understand space 
radiation. So they should actually be cooperating. They did for 
years. You asked the question why they stopped, and I have 
absolutely no clue. Probably you're right, having somebody from 
DOE at the table would have been useful.
    Mr. Foster. Any other comments on sort of the technical 
differences between the types of exposures?
    Mr. Neumann. Well, in talking the range of agencies that we 
met with, they all agree that there were some common areas of 
research that would be of use to each of the agencies, so 
that's why they would sometimes jointly fund some of these 
ongoing studies the Million Person Study and other studies--
where they can get research that would be useful to their 
particular settings.
    Dr. Brink. Just I agree with Gayle that there's a fair 
amount of overlap too which makes it a little bit puzzling but 
certainly there's obvious distinctions, NASA being very 
interested in cosmic radiation and so forth, but otherwise 
there's a fair amount of overlap in just how we address these.
    Mr. Foster. Now, the other sort of big question here is, 
let's say that you're able to go to a less conservative, you 
know, zero intercept model for what you thought the human 
danger was. Is there anyone who's done, you know, an 
exhaustive, high-quality study of what the health and economic 
impact of that would be? Just assume that we declare a higher 
level of, you know, a de minimis exposure to be actually safe. 
What would be the economic impact? What would be the indirect 
health impact in terms of more, you know, more allowable chest 
X-rays, a shift in our energy mix, presumably towards nuclear 
and so on.
    Dr. Brink. It's an interesting question. I'm not aware of 
any such analyses but certainly as practicing physicians, most 
practicing physicians are still very much recognizing that the 
benefits typically outweigh the risks and so I don't know that 
there's been a huge reduction in the use of medical imaging, 
for example, because of whether there's the linear no-threshold 
intercepting the origin of the axis or whether they're 
considering there's a threshold effect or even a hormetic 
effect. Most physicians are still focusing on the benefits and 
practicing appropriately.
    Mr. Foster. But there's still some limit. I mean, they 
reach a point at which, you've already had, you know, five X-
rays this month and maybe we shouldn't have another one. Is 
there a sound scientific basis for that kind of decision?
    Dr. Brink. In my opinion, no, there's not, and when I'm 
faced with patients who are worried about those kind of 
thresholds, I'm going right back to the benefits and saying, 
you know, what is the reason why your physician needs these 
studies. Because the benefits are clear-cut. The risks are very 
much uncertain, and typically in almost all cases when there's 
a real sound medical reason to do the study, we're going to 
favor doing the study over a theoretical risk.
    Mr. Foster. But it's your suspicion that, you know, to the 
extent that doctors are limiting, you know, things like X-ray 
or PET scans and so on that it's probably the conservatism, you 
know, related to radiation doses probably nets out harmful for 
patients?
    Dr. Brink. Well, we certainly will favor imaging tests that 
don't use ionizing radiation when we can so, for example, MRI 
or ultrasound don't have the same risks, and we certainly--and 
when we do need to use ionizing radiation, we're promoting 
using as low as reasonably achievable doses. But in terms of an 
economic threshold or economic benefit to a threshold, I'm just 
not familiar with any of those studies.
    Ms. Woloschak. Yeah, where I would say where the economic 
threshold would probably come in, and I don't actually know the 
numbers, would be in how far do we have to clean up our 
nuclear-waste sites. It's probably a difference of trillions, 
at least billions of dollars if we accept the linear non-
threshold or if we have a lower threshold for cleanup. That's 
where I would think that there'd be a big savings in money.
    Mr. Foster. I recall a paper by Richard Wilson of Harvard 
Physics Department who you may know. He was actually I believe 
one of the first Westerners allowed at Chernobyl and a real 
expert on this. He calculated the optimal radius of evacuation 
from Fukushima because you can mess up either way. If you--you 
know, there are two effects obviously. People suffer from 
exposure to radiation if they're too close. On the other hand, 
there's a well-documented probability of having people die, 
particular the elderly, if you move them, just relocate them, 
and so this allows you to calculate an optimal radius of 
evacuation. It was the conclusion of his paper at least that 
actually the Japanese evacuated too large a radius and 
ultimately had a negative health effect from that decision. And 
so this is just another example where getting the science right 
here is so important.
    And now I'm over time myself so I'm happy to yield back.
    Chairman Weber. Okay. Thank you.
    I now recognize the gentleman from Oklahoma.
    Mr. Lucas. Thank you, Mr. Chairman.
    Dr. Woloschak, one of the tendencies whether it's in 
Congress or the Executive Branch or, for that matter, anywhere 
out in the real world is, sometimes if we don't want the 
answer, we don't ask the question. So from that guise, let me 
quiz you and ask you for your opinion. The way that this 
research was determined to no longer be conducted, is that an 
example perhaps of someone not wanting the answers that would 
come from it? And if I look at this in the overall context, I 
mean, we've discussed health issues, we've discussed terrorism 
issues, we discussed the space program. From the perspective of 
my constituents back in Oklahoma, it seems that not knowing 
this information or taking the research to its ultimate 
conclusion puts us in a position to make perhaps decisions 
based on inaccurate facts. Could you expand on that a moment, I 
mean, from the perspective, say, of NASA? If we're going to the 
Moon or if we're going to Mars, we need to know these things, 
correct?
    Ms. Woloschak. Yes. In fact, when I ask astronauts, they 
say exactly that, that they care about the risks for cancer. 
They don't care as much about the risk of blowing up on a 
Launchpad which puzzles me.
    Mr. Lucas. Launchpad is instantaneous; cancer takes a long 
time.
    Ms. Woloschak. That's what they say.
    Mr. Lucas. I appreciate their point.
    Ms. Woloschak. But I think you're exactly right. The thing 
is, I can't actually speculate for why people don't want to 
know the answers to these questions or why it's been sort of 
stopped, but I will say it's been a pattern at least from my 
experience within DOE because we had a very large-scale 
program. I believe it was one of the best in the world for 
these--with these animals. They just terminated it, you know, 
spontaneously. Then they start up the Low Dose program and then 
again they terminated it very, very rapidly. I don't know what 
the reason for that is. It could just be something sporadic. 
Again, probably from DOE could answer that better than I could.
    Mr. Lucas. One of our responsibilities in Congress and most 
assuredly in our oversight capacities is to assess these 
situations and compel the right actions to take place to help 
provide guidance to the Executive Branch. I always remind my 
constituents in town meetings, no matter what anyone says at 
the other end of Pennsylvania Avenue, we write the laws. No 
matter what anyone says, the responsibility is for those laws 
to be implemented accurately and efficiently. So I find this a 
very concerning issue to me in a variety of ways. We have 
debated on this Committee as the Chairman knows and in Congress 
for years about how to store waste, whether a facility 
underneath a giant mountain in the West should be used, or it's 
better to store things down the street from me that I may not 
know about because that's where it was created or where we go 
ultimately with NASA.
    Now, I appreciate your observations and the willingness to 
try and preserve as much of this research as could be done. Do 
any of your colleagues on the panel wish to address that 
question about what the background might or might not be that 
led to the decisions that have brought us to this point?
    Mr. Neumann. Let me add the best answer we can get from DOE 
was that they had other research priorities in the bioenergy 
and environmental research that they wanted to fund. What was 
curious to us is that in 2016, the advisory committee report 
identified a number of areas that DOE thought would be useful 
to reduce the risk of cancer and understand better the low dose 
risk and also supported convening workshops between agencies to 
collaborate on a research agenda. But then the report 
ultimately concluded not to continue the research. So we 
couldn't get a better answer than that. It's just there were 
other research priorities.
    Dr. Brink. I have nothing to add to this one.
    Mr. Lucas. I think perhaps I've made my point, and I 
appreciate that, and I'll yield back the remainder of my time, 
Mr. Chairman.
    Chairman Weber. Which is by the way why we need a single 
collaborative mechanism to make that decision.
    I recognize the gentleman from New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for joining us today. I'm happy to see the Committee 
actively engaging on what I believe is a bipartisan issue where 
scientific research has an important role to play. Basic 
research on low dose radiation is of vital importance with far-
reaching consequences for human health, future technology, 
certainly for human exploration and national security. So 
there's still a great deal in this field we do not fully 
understand, and I heard, I believe from just about all of you, 
that we need more attention to the research piece. Is that an 
agreement across the board that more research commitment is 
required? Mr. Neumann, I think you're--I see two heads nodded 
yes and----
    Mr. Neumann. I would just say yes, that we identified--the 
agencies identified for us the research priorities, that there 
was obviously a number of areas that still had a great deal of 
uncertainty, and they believed there would be benefits to 
continuing that research.
    Mr. Tonko. Okay. Now let's get into the GAO report. Mr. 
Neumann, the primary recommendation in the report is that DOE 
lead the, and I quote, ``development of a mechanism for 
interagency collaboration on research on low dose radiation's 
health effects.'' Now, DOE disagreed with your recommendation 
saying that it would not be appropriate for the Department to 
lead such an interagency initiative. Do you think it would be 
inappropriate for DOE to lead this interagency effort?
    Mr. Neumann. Not at all. In fact, we thought they were in 
the best position to lead this effort given this past 
leadership as well as their responsibilities under the Atomic 
Energy Act, and it's also consistent with GAO best practices 
that we've identified for interagency collaboration that if you 
don't have someone leading such a mechanism, it's difficult for 
agencies across the government to coordinate and make more-
effective decisions.
    Mr. Tonko. Is there a particular precedent you would point 
to for DOE to take on this role?
    Mr. Neumann. Well, I think Dr. Woloschak also pointed out 
in one of her responses that DOE did do that in the past, and I 
think that's what we also saw.
    Mr. Tonko. And your testimony mentions GAO's previous work 
has shown that collaborative mechanisms can serve multiple 
purposes, to develop sound science and technology policies. Can 
you further elaborate on the specific projects that GAO has 
examined to support this conclusion?
    Mr. Neumann. Well, I can get back to you with specific 
examples but there's been a range of examples in the past in 
various settings where there are multiple agencies involved in 
research areas that by having collaborative mechanism they can 
be more effective in achieving those goals. And without that 
leadership, those efforts are likely to not be as successful.
    Mr. Tonko. And DOE has already responded that they do not 
concur with GAO's recommendation. So are there alternative 
options that GAO considers or should consider or have 
considered when examining this issue that this Committee should 
be aware of?
    Mr. Neumann. Well, I think we did consider whether or not 
other agencies would be in a position but we came to a 
conclusion based on the evidence that DOE was in that best 
position. Obviously additional direction from Congress might 
also encourage them to take a leadership role.
    Mr. Tonko. And in the event that DOE does not implement 
your recommendation, are there other coordinating bodies or 
mechanisms outside of DOE such as OSTP that could potentially 
fill this void?
    Mr. Neumann. In some of other work looking at OSTP, they 
usually are not in the position to direct agencies in some of 
these science efforts. They bring agencies together but then 
rely on the agencies to determine amongst themselves how to 
lead various efforts. So I would say that having an agency lead 
would be very effective.
    Mr. Tonko. Thank you.
    And Dr. Woloschak and Dr. Brink, most of the conversation 
in this field is about the detrimental effects of radiation 
exposure. Some researchers have indicated that there may be 
positive benefits from exposure to low doses of radiation but 
there's still much more that we need to learn. So my question 
is, what is your perspective on the possibility that there 
could be positive health effects as a result of exposure to low 
doses of radiation, and what could some of these positive 
effects be? Dr. Woloschak?
    Ms. Woloschak. Yeah, so we for sure know that low doses of 
radiation boost the immune response, can actually add to health 
of people. The problem is, how do you balance that with 
potential risks of cancer and other effects. So the risk of 
cancer is something that's very questionable at low doses but 
there certainly are many studies that have shown that low doses 
also do boost an immune response, so it's that balance that I 
think is going to be hard to understand.
    Mr. Tonko. Okay. Thank you.
    And Dr. Brink?
    Dr. Brink. So the idea that radiation could actually be 
somewhat beneficial at low doses is called the hormetic effect, 
and it's yet another step beyond where we are today which is 
just accepting that there might be a threshold rather than the 
no-threshold hypothesis. So I tend to, as I alluded to in my 
windshield wiper analogy, that I tend to think that naturally 
occurring processes in many examples in nature do have non-
linear responses whether they be that one or many others we can 
think of. And so to my way of thinking just getting to the 
point of acknowledging or understanding if there's a threshold 
through additional research that might show that would be the 
first step before even getting to the hormetic effect.
    Mr. Tonko. I thank you all very much, and with that, Mr. 
Chair, I yield back.
    Chairman Weber. I thank the gentleman.
    The gentleman from Illinois is recognized for five minutes.
    Mr. Hultgren. Thank you, Chairman. Thank you all for being 
here. I appreciate your work and appreciate your testimony 
today. Last Congress, the House unanimously passed legislation 
that I had sponsored. It was H.R. 35 to authorize a Low Dose 
Radiation Program. I was also glad this was included in the 
Committee's unanimously passed Energy Research and Innovation 
Act earlier this January. Hopefully we can see that get over 
the finish line in the Senate and a lot of other things too.
    But coming from a state where more than half of our energy 
comes from zero-emission nuclear energy, the safe handling and 
storage of nuclear material is vital. The University of Chicago 
will be also celebrating the 75th anniversary of Chicago Pile-1 
next month, so we've got the longest record of work in this 
space. Regulations based on science are necessary so that we're 
doing what's needed while not overburdening our research 
facilities and clean energy industry.
    Dr. Woloschak, if I could address my first question to you. 
In your prepared testimony, you discuss new technologies that 
could be applied to this research. What are some of these new 
technologies, and in your opinion, how promising are these 
potential applications?
    Ms. Woloschak. Yes. So actually the acting--Mr. Foster had 
mentioned that there are large-scale data analyses that are 
quite possible, and we actually are trying to take advantage of 
that now looking at data sets from the United States, combining 
them with data sets from the E.U. in fact so we can look at 
150,000 mice, being able to look at 31,000 dogs. That sort of 
data on a large-scale analysis was not even possible years ago. 
So statistical analyses have changed. Computational approaches 
have changed. That's one thing that's going to make a very big 
change.
    The second thing is, is that as was noted before, we can do 
single-cell sequencing of cells so I think that that technology 
is going to be extremely important. We can also make new kinds 
of mice that we couldn't make before so if we wanted to try to 
create an animal with particular types of genetic 
susceptibilities, we can look at those with a far fewer number 
of animals. So there are a lot of new technologies that didn't 
exist when this program was even terminated 5 or six years ago. 
I mean, science is moving really fast.
    Mr. Hultgren. Dr. Brink, in March of 2013, Dr. Paul Cabot 
from Harvard Medical School cosigned a letter to the former 
Science Advisor, Dr. Holdren, detailing the gaps in knowledge 
on low dose radiation and the continuing need for this 
research. Do you know what response he received on that?
    Dr. Brink. I'm sorry, I do not, but I'd be happy to 
investigate and get back to you about that.
    Mr. Hultgren. That would be great if you would.
    Dr. Woloschak, if I could, you testified that you have 
accumulated the archive of referenced animal tissue samples 
from DOE's closed Low Dose Program in your lab at Northwestern. 
What so far have you been able to determine? You kind of 
referenced that, but what else are you seeing? How do you plan 
to curate the data to make it publicly accessible to? And if 
DOE does restart the program, will that also make it so that 
your data--it'll be easier for you to make that public as well?
    Ms. Woloschak. Yes, so these data are amazing. I mean, 
these were single--I mean, who does a 50,000-mouse experiment 
anymore? I mean, nobody--we don't have the capacity to do that. 
Twenty-one thousand dogs. I mean, so rather than throw it out, 
we actually took the data sets, and because of DOE's support 
through the Low Dose program, we were able to put much of that 
data up on a publicly available website now. The rat data are 
still not up on the website. Not all the dogs are up. We're 
trying to make it be publicly available so anybody can study 
it. That has been our goal. But the problem is keeping the data 
without having the tissues to go back to verify is a problem 
and that's why we have tried to keep the tissues as well, and 
I'm thankful to my university who has supported us through the 
hard times.
    Mr. Hultgren. That's great. Also Dr. Woloschak, a 21st 
century science workforce is something this Committee has been 
focused. We spend a lot of time discussing it, and I want to 
make sure that we're ensuring that we have it. In your 
testimony, you identified workforce issues in the field that 
the majority of radiation scientists are retired and that there 
are not enough young scientists to replace them. How do you 
recommend that our Nation and our world address this developing 
issue?
    Ms. Woloschak. The reason why students don't want to go 
into radiation biology is because there's no funding so they 
feel like they're going into a dead-end position, and honestly, 
today, I can't recommend for my students to go into that field. 
I also work in nanotechnology, and I push them in that 
direction because there's funding there. I believe that more 
funding for the field would really enhance capabilities to 
generate a workforce.
    Mr. Hultgren. That's great. In my last few seconds here, 
again, Dr. Woloschak, the National Council on Radiation 
Protection has been writing a commentary on recent research 
implications for the linear no-threshold model of radiation 
protection and expects to put a report out soon. Based on your 
review, what have been some of the major recent studies in 
radiobiology over the last five years and what impact, if any, 
are they likely to have on the current linear no-threshold 
model?
    Ms. Woloschak. Right. So the report's not out. I'm actually 
on the board for the NCRP, and I don't--the report's not quite 
out so I'm not at liberty to say what they're going to say but 
certainly there have been--I believe they're going to still--
they're using the human data as their primary mode for saying 
LNT is still the safest with today's current today. They will 
say that more data would be useful.
    Mr. Hultgren. Well, thanks again. Thank you all for being 
here.
    I yield back.
    Chairman Weber. I thank the gentleman. The gentleman from 
Florida is recognized for five minutes.
    Mr. Dunn. Thank you very much, Mr. Chairman, and I want to 
thank our panelists. I was fortunate enough to capture them on 
the way into the room and had a chance to talk to them earlier, 
and I'm grateful for that. I appreciate the work that you do.
    And also Mr. Neumann, we didn't get a chance to talk but I 
welcome you because I understand that you are the one person in 
the room who's most able to direct the Department of Energy to 
restart this research, and that's exactly what we would like to 
see you do. I think you've gathered that from all of us.
    Congressman Foster suggested that we adopt a standard that 
has been called, I think Dr. Brink said it as low as reasonably 
achievable radiation, and I think that that is a great model 
for us to be thinking about. I can tell you as a practicing 
surgeon that we had a lot of pressure on us to limit radiation 
exposure even at the risk of being ignorant of the patients' 
underlying pathologies. So this work is very, very important.
    My question--and this will be part Dr. Woloschak on the 
therapeutic side but part to Dr. Brink on the diagnostic side. 
So have we gone overboard in stressing the risks associated 
with the proper use of diagnostic radiation and therapeutic 
radiation?
    Dr. Brink. May I jump in first? I do think that as you 
probably experienced in practice that sometimes patients--
there's been quite a lot of press that patients will be exposed 
to about the potential risk and sometimes they'll confound 
potential versus actual and will provide a lot of concern about 
even getting the necessary imaging that they need. And so very 
commonly I'll work hard to try and convince a patient that the 
benefit of what they would see from undergoing the test would 
greatly exceed the potential risk that they might face, and I 
imagine you've faced that in your practice as well.
    Mr. Dunn. Every--it was just very, very commonly, and I 
think there's a sense of alarmism actually among the patients 
and they're getting this information from whatever sources that 
we're over-radiating them dangerously, and you're looking at 
somebody who might have something as simple as a kidney stone 
but if they're obstructed and they're infected beyond the 
obstruction, that's a potentially fatal problem.
    Dr. Woloschak?
    Ms. Woloschak. Yeah, I think for therapeutic radiation 
oncology where you're treating patients with cancer, most often 
they don't really worry about what the risks are going to be 
but where it comes to play is, because you're giving a dose all 
over the body, secondary cancers can come about as a result of 
the radiation exposure. So after they've been treated, then 
they're worrying either about am I going to have a recurrence 
or am I going to have a secondary cancer. So it becomes an 
issue after the fact. I don't think it influences therapy but 
certainly the one thing that does influence therapy is how can 
we make that treatment location be as small as possible to 
minimize dose to the rest of the body. So we do actually 
understand quite a bit about low doses because of the scatter 
of the radiation when we give therapeutic doses.
    Mr. Dunn. So that's actually interesting subject for us. I 
mean, we obviously worry about bladder and rectal cancer 
following prostate radiation.
    Ms. Woloschak. Absolutely.
    Mr. Dunn. Can you give us a sense of how common that is----
    Ms. Woloschak. Yeah, I mean----
    Mr. Dunn. --rectal and bladder.
    Ms. Woloschak. Yeah, I'm not really a radiation oncologist. 
I'm a radiobiologist that teaches radiation oncologists, but 
the worry is--there is a considerable risk, and in fact, that's 
what's affected the way that we deliver. So as you know, we're 
now using seed therapies, for instance, because of worries 
about radiation damage to the bladder and rectum mostly from 
late tissue toxicities that might result. Secondary cancers, 
there are quite a few studies that have been done looking at 
what percentage that you'll find in the field and then outside 
of the field, and there is a pretty considerable risk not as 
much to the rectum but to the other abdominal areas associated 
with particular prostate cancer.
    Mr. Dunn. And finally, if I could--and one of the 
confusions is when we're talking about radiation, doses of 
radiation, we think we're measuring it in one type of 
measurement, and I'd like you to address a little bit either 
what measure we should be using or how confusing that subject 
is.
    Dr. Brink. That's a great question. You know, there's so 
many things that need to be investigated in research on low 
dose radiation and not the least of which is just how to 
measure it. There's much literature that reports the 
measurement to the entire body, the organism, the effective 
dose and others that really focus on the specific organ that's 
irradiated, and this alone actually creates a great deal of 
confusion, and some just owing to the uncertainty of the best 
way to measure the dose from any particular study or therapy.
    Mr. Dunn. Any follow-up on that?
    Ms. Woloschak. Yeah, and I would agree with that, and also 
add in that it's a big issue for discussion. I mean, at the 
National Council on Radiation Protection, we talk about what's 
the best way to try to calculate dose and figure out dose. It's 
controversial, and believe me, people--you could fill a room 
talking about it for days.
    Mr. Dunn. So my time has run out but I hope, Mr. Neumann, 
what you take away from all of this is that we all are cheering 
for you to go, you know, get on this horse and ride it home. 
Thank you so much.
    I yield back, Mr. Chairman.
    Chairman Weber. I thank the gentleman.
    Mr. Foster, you're recognized.
    Mr. Foster. If I could just--a point of clarification. In 
my remarks, I did not specifically advocate for ALARA, a low as 
reasonably achievable which is, you know, the rule under which 
I worked for many years at a national lab. You know, I view 
ALARA as largely an expression of our ignorance. It's what you 
do when you say since I do not know whether or not this may be 
dangerous, in the absence of better numbers, let us do as much 
as reasonably achievable, whatever that means, to minimize 
dose, and so it's an example of a real cost of not having the 
real numbers on this.
    Chairman Weber. You said it's the result of ignorance. 
Doesn't that apply to a lot of what Congress does? I'm just 
asking.
    Mr. Foster. Well, it's also true that we work in the U.S. 
Capitol, which has--because of the stone that's used has 
radiation levels that would not be allowed for incorporation 
into a nuclear facility.
    Chairman Weber. Well, see, that explains what I'm talking 
about.
    We're going to do a round two, and I don't know if the 
gentleman from Florida wants to hang for that, but at least Mr. 
Foster--are you good, Neal? Thank you.
    So we would love to have the DOE in here as part of this 
discussion. We'd love to have the Under Secretary for Science 
from the DOE but we're waiting on him to get confirmed. So if 
we can make that happen, that would be helpful.
    I did note in the testimony today that the Atomic Energy 
Act--and this is for you, Mr. Neumann. When the DOE said that 
they didn't think that they wanted to take that purview, the 
Atomic Energy Act of 1954, did they cite reasons from the 
Atomic Energy Act, or do you remember why they turned it down?
    Mr. Neumann. They did not cite that. We pointed that out in 
our response to them, that they do have these responsibilities 
but----
    Chairman Weber. I saw that. Of course, it is at this point 
63 years old so I guess the political question may be in part, 
do we need to revisit that Act? Do we need to clarify what 
their role might be in this instance?
    Mr. Neumann. The language is pretty plain in the Atomic 
Energy Act that they're responsible to lead, you know, 
radiation research given----
    Chairman Weber. Which would include low dose?
    Mr. Neumann. Right, which would include a range of--so, you 
know, you could always have more specificity but the language 
is pretty plain.
    Chairman Weber. Okay. Dr. Woloschak, you said that low dose 
radiation could boost the immune response.
    Ms. Woloschak. There's certainly some studies that have 
demonstrated that in the literature, and it looks to be--that 
that's true.
    Chairman Weber. Okay.
    Ms. Woloschak. The problem is, it may also cause cancer, 
and so do you want to tell somebody to go sit in a radioactive 
spa and enjoy and boost your immune system if at the same time 
they're at risk for cancer, and it's those unknowns that make 
it be so difficult for what to do with low dose radiation.
    Chairman Weber. Right. And is that probably true? One of 
the difficult parts of this in that research is because 
everybody's DNA makeup is different. How do you decide, you 
know, how everybody's going to be affected by that. Is there a 
time in a person's life generally speaking and an age--I think 
some of the testimony, I don't remember if it was you or Dr. 
Brink that said cells repair themselves. I think it was yours.
    Ms. Woloschak. Oh, cells always repair themselves.
    Chairman Weber. Right.
    Ms. Woloschak. So the question is, how much can they 
repair.
    Chairman Weber. But if they repair themselves 
inappropriately--I forget the terminology--then there's a--I 
guess they mutate and they create a problem in that regard. Is 
there an age-- I mean, do you find that when a person gets 
older, midlife? Is it 30 years old, 50 years, 80 years old, or 
no? Do you have that research?
    Ms. Woloschak. There's a lot of work that says that as 
people get older, their repair capacity decreases.
    Chairman Weber. Well, I know that's true.
    Ms. Woloschak. Yes. We all know that. But the other thing 
is that in general, the young are more susceptible for cancer 
induction than the old because they're going to live longer.
    Chairman Weber. Okay. And then Dr. Brink, you brought up a 
new term for me. You said the idea of the beneficial low dose 
is called the hormetic effect.
    Dr. Brink. Yes.
    Chairman Weber. Spell that.
    Dr. Brink. H-o-r-m-e-t-i-c.
    Chairman Weber. Okay. Would you elaborate on that, please?
    Dr. Brink. It's a theory that I think was being alluded to 
earlier which is that low dose radiation could in fact be 
beneficial either through stimulating the immune system or what 
have you, and it's very much a theory at this point.
    Chairman Weber. So how did it come about and how long has 
it been around?
    Dr. Brink. I'm sure I can answer specifically. It's been -- 
it's not new. The theory's been around for some time.
    Chairman Weber. Where does the name hormetic come from?
    Dr. Brink. Hormesis is the root term, and I'm sorry, I'm 
not a linguist. I'm not sure I can answer that.
    Chairman Weber. Okay. You just know that that's the term 
that was applied.
    In Texas in Andrews County out by El Paso or actually I 
think it's maybe further north toward the panhandle is a 
company called Waste Control Specialists, and they take on low-
level radiation waste. Are any of you all aware of that 
facility or familiar with that facility? So when we're talking 
about, you know, doing research on low-level waste, were any of 
the low-level radiation waste facilities included in that 
research? Do you know?
    Dr. Brink. I'm not aware.
    Ms. Woloschak. I'm not aware of any.
    Chairman Weber. So when we talk about doing research on 
low-level radiation, and maybe this is for you, Mr. Neumann, 
why wouldn't it be that the DOE or anybody that was involved 
prior to 2012 when the funding was starting to be diminished, 
why wouldn't they have included those facilities? Any idea?
    Mr. Neumann. The research they've been conducted has been 
either epidemiological, you know, where they're looking at a 
population of people over time, or radiobiological, which 
involves lab work that Dr. Woloschak talked about.
    Chairman Weber. Right.
    Mr. Neumann. That's how they were determining the potential 
effects of low dose radiation.
    Ms. Woloschak. One approach would be to go to a site like 
the one you've mentioned and look at what the doses are, get a 
good dosimetry, and then do some lab experiments to try to 
answer what those effects might be in addition to studying the 
population.
    Chairman Weber. Dr. Brink, I think you were going to say 
something?
    Dr. Brink. Yeah. There certainly have been other efforts to 
look at radiation workers for their risks, and a more recent 
one is the Million Workers study looking at a million workers 
in the nuclear power industry that's underway.
    Chairman Weber. Right, and that was the reason I asked 
because those are typically associated with high-level 
radiation, right?
    Dr. Brink. Well, hopefully not for the workers.
    Chairman Weber. Well, I mean, you're hoping not but, I 
mean, you go in there and you think well, those would not be 
considered low dose radiation levels, right?
    Ms. Woloschak. The Million Workers study is really about 
low dose workers----
    Chairman Weber. At nuclear----
    Ms. Woloschak. --people that were exposed at low----
    Chairman Weber. At nuclear plants?
    Ms. Woloschak. Yes.
    Chairman Weber. I would think the propensity would be to 
be--well, I guess any level--what did you call it? The lowest 
risk assessment level? But it's interesting to me that you only 
talk about nuclear energy plants, you don't talk about the 
waste facilities. Perhaps that's something that should be 
included.
    So I appreciate that, and I'm going to yield to the 
gentleman from California.
    Mr. Rohrabacher. Let me apologize that, of course, as 
usual, we're scheduled with two important hearings at exactly 
the same time, and I will review your testimony later on. So if 
I ask a question or two that is repetitive, excuse me for that.
    Let me--people are going to the dentist and then they're 
taking your pictures or you go to a doctor and they're taking 
X-rays of you. Is this the type of low dose radiation that 
deserves more research?
    Dr. Brink. So when we talk about low dose radiation, those 
kind of doses are extremely low, and more commonly, and you 
know, they're two or three orders of magnitude lower than the 
doses that we call low dose that we're focused mostly from 
computed tomography or nuclear medicine.
    Mr. Rohrabacher. So we don't--so one thing that came out of 
this hearing today is that you're not suggesting that we--this 
is a potential danger that needs further investigation in terms 
of the type of radiation that we are exposed to in the health 
industry, medical health?
    Dr. Brink. Well, the topic is very much about doses 
administered in the health industry. You were speaking more 
specifically I think about dental X-rays or----
    Mr. Rohrabacher. Right.
    Dr. Brink. --extremity X-rays, which are extremely low 
dose. But more commonly, the doses from an imaging procedure 
such as a CT scan or a nuclear medicine test would be also low 
dose but at a magnitude that we're really speaking about what 
would be the--where research would be helpful to understand 
better what the potential risk might be. At the moment we only 
extrapolate from high-dose exposures to kind of guesstimate 
what the risk would be at those kind of doses.
    Mr. Rohrabacher. And what about, is this idea that power 
lines--I guess power lines wouldn't be--I remember there were 
some complaints in the past that power lines could pose some 
sort of health threat. Was that due to radiation or something 
else?
    Ms. Woloschak. You know, I was on a committee that 
investigated the effects of electric magnetic power lines, and 
that kind of radiation or the quality of radiation is different 
than the ionizing radiation that we're talking about now. Now, 
in fact, most of those studies said that there were no effects 
from living by the high-power lines but this is different type 
of radiation.
    Mr. Rohrabacher. All right. What about that?
    Ms. Woloschak. And it's also a different kind of radiation 
than the cell phones have as well.
    Mr. Rohrabacher. Okay. So you aren't today testifying that 
a warning to all of us to put this on the speaker rather than 
next to your ear or that we better watch out when we go to the 
dentist or if you're---you have to get something X-rayed so the 
dentist--or so the doctor can figure out how to help you, we 
don't have to worry about those things?
    Ms. Woloschak. So I think what we're trying to say is that 
cell phone, that quality of radiation, is something that we're 
not concerned about here. What we're concerned about is 
ionizing radiation, and ionizing radiation is dangerous because 
it breaks bonds, and that's----
    Mr. Rohrabacher. Can you give me an example of ionized----
    Ms. Woloschak. So the dental X-ray is a type of ionizing 
radiation. The other types would be the CT scan, the chest X-
ray, what we find in nuclear power plants, what we use for 
nuclear power. All of those would be examples of ionizing 
radiation. They're a type of radiation that causes the 
breaking--has the potential to break our bonds in our genetic 
material.
    Mr. Rohrabacher. So is it a fundamentally different type of 
radiation that we're talking about?
    Ms. Woloschak. It is fundamentally different than the cell 
phone or the power line, fundamentally different.
    Mr. Rohrabacher. So we're not just talking about dosage, 
we're talking about an actual difference in the type of thing 
that we're looking at?
    Ms. Woloschak. Right.
    Mr. Rohrabacher. Well, we do know also--look, I'm here to 
learn, okay, so don't think less of me for asking stupid 
questions sometimes. Isn't--when you go and you're treated for 
cancer, aren't you being dosed with radiation, and if the 
cancer--if radiation causes cancer, what are we doing?
    Ms. Woloschak. So that becomes one of the biggest questions 
in treatment of patients with cancer. You're absolutely right. 
The dose we're giving to the cancer to kill it is very, very 
high, but what happens is, high doses kill cells. They don't 
cause cancer; they kill cells. What causes cancer are lower 
doses where the cell still lives but it's picked up mutations. 
So when you treat somebody with cancer, you give this whopping 
dose, it kills the cells; they're gone. But around that dose 
there's often a lower dose, and then there's the risk of 
secondary cancer, a second cancer popping up. But the problem 
is the person's life is at stake so you just go in and you 
treat the cancer because you've got to save the life then, and 
then you worry about the effects later. But it is a risk. It is 
a risk.
    Mr. Rohrabacher. All right. Well, thank you very much for 
drawing our attention to this issue. Thank you, Mr. Chairman.
    Chairman Weber. Thank you, and I apologize to Mr. Foster. I 
should have recognized him next. Bill, you're up.
    Mr. Foster. Thank you.
    First, I just want to comment on these beneficial effects 
of radiation. You know, this has been speculated upon I guess 
as long as radiation was known. My mother, when she was growing 
up, I guess people thought it was a good idea to treat acne 
with very large doses of X-rays for which my mother enjoyed 
having various forms of skin cancer towards the later years of 
her life. On the other hand, you know, my brother who had stage 
IV esophageal cancer benefited tremendously from a focused dose 
of radiation on his tumor. And so better scientific 
understanding yields better health outcomes here, and one of 
the reasons that we really want to keep doing this research.
    Now, in regards to the hormetic effects, you mentioned the 
immune system is activated in response to radiation dose. Is 
there also evidence that this can trigger autoimmune diseases 
as well? Is there a danger there as well as cancer?
    Ms. Woloschak. Look, I want to stress that we don't 
understand enough about low doses to even say yes, there's this 
big hormetic effect. What I can say is, in the literature, you 
can find reports that when you treat with low doses, you 
stimulate animals to have a better immune response. Is there 
the possibility of autoimmune disease? You're absolutely right. 
That is a possibility that could come with it. So just as much 
as looks like there are positive effects, there may also be 
negative effects, and that's why we have the need to do 
research at that low dose range.
    Mr. Foster. Okay. And similarly, DNA repair mechanisms are 
modulated by various factors inside biology. Are there 
documented effects of radiation on how active the DNA repair 
mechanisms are?
    Ms. Woloschak. Certainly we know that the repair mechanisms 
are sitting there kind of raring to go, and when you irradiate, 
they go right to the site within almost nanoseconds to begin to 
repair. So the repair process is extremely rapid. It begins 
almost immediately following radiation exposure.
    Mr. Foster. And it's my understanding that there is some 
scientific at least speculation, if not research, that you may 
be able to treat astronauts with drugs, for example, that 
activate the DNA repair mechanism to make them more radiation-
resistant.
    Ms. Woloschak. NASA's looking for mitigators exactly like 
that right now, so you're right on target.
    Mr. Foster. It's sort of an infinitely complicated problem.
    Now, I'd like to actually stand up in favor of DOE a little 
bit. It was not a completely thoughtless abandonment of this, 
and if I could have unanimous consent to enter into the record 
a letter----
    Chairman Weber. Without objection.
    [The information appears in Appendix I]
    Mr. Foster. --a letter to the Secretary of Energy Advisory 
Board dated--on this subject dated June 23, 2015, which makes 
two interesting observations. The first one is that, quoting 
from the letter, ``it's highly unlikely and I would say 
impossible that a group of experts would after review and 
deliberation of the vast literature on this subject come to a 
consensus or that that consensus would resolve this issue to 
the satisfaction of the regulatory authorities or the public.'' 
You know, this has to do with is there a path to success here 
even if the science became clear, and I was wondering--I'll ask 
you for comments on that.
    The second thing I want to point out is that this same 
letter from the SEAB says the SEAB does not believe that DOE 
should abandon its research on low level radiation effects. So 
although it expressed skepticism on a path to success both in 
convincing the regulators and the public that this could be a 
settled issue, they did also recommend this, and so the letter 
is, I think, interesting reading for anyone just trying to 
evaluate why the DOE went the way it did.
    So any comments on that?
    Ms. Woloschak. Yeah. I mean, so as a person that sits on a 
number of regulatory boards that discusses these and mostly 
makes advisory decisions, I mean, I think it is true to say 
that if you don't have data, then you always say well, we can't 
imagine what we can get to solve a problem. So DOE is exactly 
correct in saying we can't imagine what it would get to solve a 
problem. But at the same time what I'll say is, I've seen 
policies change because of data. So things I never expected 
like to have the limit for the dose for the lens of the eye, 
it's dropped because of new data and new results. It's dropped 
internationally----
    Mr. Foster. The limit dropped in the sense of being more 
conservative?
    Ms. Woloschak. Being more conservative in that particular 
example because cataracts were popping up at lower doses than 
people expected, and nobody would have imagine that happening 
five years ago. It was just not possible. So I think that it's 
easy for DOE to make that statement that things will never 
change, but the fact is, data do convince people, and that's 
why more data are needed.
    Mr. Foster. You know, it used to be popular to tune up 
electron beam lines by looking at--staring the beam into your 
eyeball and looking at the track of radiation.
    Anyway, I just wanted, in the time that I barely have here, 
to bring up the issue of money. I mean the reason that 
ultimately this program was discontinued is the stress in real 
terms of the budgets in the Department of Energy, so I have a 
lot of sympathy there. You know, I wish this could be a 
uniformly bipartisan issue. I was very disappointed when the 
Trump Administration proposed I think a 16 percent cut to the 
Department of Energy, and I was unable to get bipartisan 
support for a letter urging against that. It is not only 
authorization that counts, it is appropriations, and I think 
that everyone paying attention to this hearing should 
understand to watch votes on budgets and appropriations and not 
just authorizations.
    Thank you, Mr. Chairman. This has been a really great 
hearing, and I yield back.
    Chairman Weber. Well, I thank the gentleman. I do want to 
point out that we didn't exactly--we're not enamored by those 
cuts either in every form, some cuts but not all of them, so I 
thank you for saying that.
    I do want to ask probably a more technical question, Dr. 
Woloschak. Ionizing radiation, you specifically said as used in 
dental X-ray, they break bonds. Would you explain what you mean 
by that?
    Ms. Woloschak. So ionizing radiation is defined by any 
radiation that can cause an electron to be ejected from an 
atom. That's actually the official definition. So if you think 
about the removal of an electron from an atom, so go back to 
high school chemistry----
    Chairman Weber. It's going to change the structure?
    Ms. Woloschak. That ejection process causes bonds to break, 
and what we care about most, as a radiation biologist, is 
damage to our DNA. So when we break bonds to DNA, then we have 
to have processes in our cells that repair it and actually we 
have fabulous methods in our cells to repair it. It's 
incredible. But that is the definition officially of what 
ionizing radiation is.
    Chairman Weber. Okay. Are there other types of radiation?
    Ms. Woloschak. Sure, sure. So ultraviolet radiation that we 
get from the sun when we get a sunburn. That's a different 
quality of radiation.
    Chairman Weber. So that's low level?
    Ms. Woloschak. It's--but it's not ionizing. So we don't--so 
that's not what we've been worried about here because it's not 
ionizing. We can protect it with sunscreens and things like 
that. Electromagnetic radiation that comes from power lines, 
that's another type of radiation. It's not ionizing. Radiation 
that we get from our microwave is also radiation but it's not 
ionizing.
    Chairman Weber. I've often wondered about that, the 
microwave analogy. How many other types of radiation would you 
say? Are there six?
    Ms. Woloschak. So yeah, they're probably about--from the 
electromagnetic spectrum, we go from extremely low-frequently 
radiation from the power lines, we go to radiation from 
infrared I mean, so there's a spectrum of probably like seven 
or eight types, and it depends on how you divide it.
    Chairman Weber. Okay. All right. That's actually probably, 
unless you have any other questions?
    Mr. Foster. If I could have just one----
    Chairman Weber. You bet you.
    Mr. Foster. --final comment. You know, this is a reminder 
of how great it is to have the GAO around, having an 
organization that provides high-quality, nonpartisan analysis 
is indispensable. You know, for good or ill, we've taken the 
size of Congressional staffs down to dangerously low levels, 
and that actually causes us to depend on organizations like 
yours, so thank you and thank everyone in your organization for 
existing and doing your job so well.
    Mr. Neumann. Thank you.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Weber. The gentleman from California.
    Mr. Rohrabacher. One last comment as well. We all know that 
Madame Curie died, right? She died of cancer, I believe, from 
her experiments, and that's--we didn't even know anything about 
radiation then at all, and she was the one who discovered this, 
and about 40 years later, 50 years later, maybe, maybe 40, my 
father had cancer, and he was saved. Radiation saved him. He 
was one of the first chemotherapy guys, so Madame Curie died 
and my father lived, and we've been through this thing where 
you go to the shoe store and you're going to buy your shoes, I 
remember looking in the X-ray machine, so mankind has a lot to 
learn, and we have learned a lot, and I want to thank you guys 
for being at the forefront of this important lesson and try and 
see how we can use this to our benefit and take care of the 
dangers, so thank you very much.
    Chairman Weber. Well, thank you. I want to thank the 
witnesses for their valuable testimony and the members for 
their questions. The record will remain open for two weeks for 
additional comments and written questions from members.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 Statement submitted by Ranking Member
 
 
 
 
 
 
                                 [all]
</pre></body></html>
